<html>
<title> - NOMINATIONS OF GARY GUZY AND ANNE JEANNETTE UDALL</title>
<body><pre>[Senate Hearing 106-40]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 106-40
 
           NOMINATIONS OF GARY GUZY AND ANNE JEANNETTE UDALL

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 1999

                               __________

  Printed for the use of the Committee on Environment and Public Works

                               -----------

                     U.S. GOVERNMENT PRINTING OFFICE
55-953 cc                    WASHINGTON : 1999
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 4, 1999
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     6
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Inhofe, Hon. James, U.S. Senator from the State of Oklahoma......     2
    Article, EPA's Wasteful Grants...............................     4
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     5

                               WITNESSES

Guzy, Gary S., nominated by the President to be General Counsel, 
  Environmental Protection Agency................................     7
    Committee questionnaire......................................    22
    Prepared statement...........................................    20
    Responses to additional questions from Senator Inhofe........29-118
Udall, Anne, nominated by the President to be reappointed as a 
  member of the Board of Trustees of the Morris K. Udall 
  Scholarship and Excellence in National Environmental Policy 
  Foundation.....................................................    15
    Committee questionnaire......................................   120
    Prepared statement...........................................   118
Udall, Hon. Mark, U.S. Representative from the State of Colorado.     7

                          ADDITIONAL MATERIAL

Letter:
    Office of Hon. Jim Kolbe, U.S. House of Representatives, to 
      Hon. John Chafee...........................................   136

                                 (iii)




           NOMINATIONS OF GARY GUZY AND ANNE JEANNETTE UDALL

                              ----------                              


                        THURSDAY, MARCH 4, 1999


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:01 a.m., in 
room 406, Senate Dirksen Building, Hon. John H. Chafee 
(chairman of the committee) presiding.
    Present: Senators Chafee, Inhofe, Baucus, and Lautenberg.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. All right, let's start. It is my 
understanding that Senator McCain will be here later to 
introduce Ms. Udall. We will proceed, and when Senator McCain 
arrives we will fit him into the program.
    My plan is that I would make a brief opening statement--
Senator Lautenberg, do you have an opening statement today?
    Senator Lautenberg. Mr. Guzy is from New Jersey.
    Senator Chafee. I knew you were going to introduce him.
    The purpose of today's hearing is to consider two 
nominations. The first nomination is that of Mr. Gary Guzy, to 
be appointed as General Counsel of EPA.
    The second nomination is of Dr. Anne Udall, to be 
reappointed as a member of the Board of Trustees of the Morris 
K. Udall Scholarship and Excellence in National Environmental 
Policy Foundation.
    We welcome everybody here today. I understand Mr. Guzy's 
wife is present, as are his daughter and his son, so we welcome 
you and are delighted that you are here this morning.
    Senator Lautenberg, a Member of our committee, will 
introduce Mr. Guzy in a few minutes.
    We also welcome Senator McCain, as well as Dr. Udall's 
brother, Representative Mark Udall--is he here yet? Not yet? 
All right. They will be along shortly.
    The Office of General Counsel at EPA provides legal 
services with respect to agency programs and activities, and 
provides legal opinions, legal counsel, and litigation support. 
It's a big job. Mr. Guzy was appointed Acting General Counsel 
by EPA Administrator Carol Browner on November 17, last year. 
Mr. Guzy has also served as Counselor to EPA and as EPA's 
Deputy General Counsel.
    Before joining EPA, Mr. Guzy served as a senior attorney 
with the Department of Justice, Environment and Natural 
Resources Division. He is a graduate of Cornell Law School, 
where he also did his undergraduate work.
    Dr. Anne Udall is currently assistant superintendent for 
curriculum and instruction for the Charlotte-Mecklenberg School 
District in Charlotte, NC. Dr. Udall has served as coordinator 
of gifted programs in the school district, and as a Critical 
Thinking Resource Specialist in the Staff Development 
Department of the Tucson Unified School District in Tucson, AZ. 
She began her career in education as a teacher with gifted 
children with learning disabilities. She received her Bachelor 
of Arts in secondary education and an M.A. in special education 
from the University of New Mexico, and a Ph.D. from the 
University of Arizona in 1987.
    She was previously confirmed by the Senate to the board of 
trustees of the Morris K. Udall Foundation on October 6, 1994. 
She is the daughter--and Representative Udall is the son--of 
the late Morris K. Udall, whom most of us knew. Some of us, 
such as Senator Inhofe, knew him better than the rest of us, 
because Senator Inhofe served in the House with Morris Udall.
    Dr. Udall, I understand there is a memorial service for 
your father later this afternoon, and I know that many here in 
the Senate would like to pay their respects to this fine 
gentleman. I am sure he would be very proud of both Mark and 
Anne if he could be here with us today.
    The Morris K. Udall Foundation was established by Congress 
in 1992 as a nonprofit organization, committed to educating a 
new generation of Americans to preserve and protect their 
national heritage by the recruitment and preparation of 
individuals skilled in effective environmental public policy 
conflict resolution. I am pleased to report that both nominees 
have impressive backgrounds and are highly qualified for the 
positions before them. These positions pose challenges that I 
am confident both are prepared to face. I look forward to 
hearing what they have to say about their backgrounds and what 
they hope to accomplish.
    Senator Lautenberg, do you have a statement here? If you 
have an introduction--we'll put off the introduction until 
Senator Inhofe makes an opening statement.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    First let me say that I have no problems with either of the 
nominees and look forward to supporting both nominees.
    Mr. Guzy, while I believe you are going to do a good job as 
the General Counsel and I intend to support your nomination, I 
am concerned about how the Agency has been handling some of 
these consent decrees and some of these lawsuits. Just last 
week in the Washington Times--you probably read the article--in 
fact, I ask unanimous consent that at the conclusion of my 
opening remarks, that this article from the Washington Times be 
placed in the record.
    Senator Chafee. Fine.
    Senator Inhofe. They wrote a very disturbing article about 
the EPA's wasteful grants. In fact, I would like to enter that 
into the record. The article details how the Agency provides 
millions in grants to organizations who turn around and 
immediately sue and lobby the Agency. The appearance is that 
Federal taxpayers are subsidizing these lobbying efforts and 
lawsuits.
    In addition, I am also concerned about how the Agency 
enters into the so-called consent decrees, where the EPA 
determines agency policies in what I consider to be ``back-door 
negotiations.'' The appearance is that the Administration funds 
lawsuits by environmental organizations who sue the Agency with 
taxpayer funds; then the EPA turns around, enters into back-
door negotiations with these groups, producing consent 
agreements that bind the Agency outside the normal notice.
    So because of these concerns, Mr. Guzy--and it's not going 
to take any time to do this--I intend to hold up moving your 
nomination until we get a couple bits of information.
    First, I would like a list covering the last 6 years, of 
all grants to individuals or organizations that have also sued 
the Agency. Please include the amount and purpose of the grant 
and the relevant dates for grants and lawsuits.
    Second, I would like a list of all parties to any consent 
agreements that the EPA entered into over the last 6 years. And 
please----
    Senator Chafee. Senator, I just want to make sure that Mr. 
Guzy is able to get this down.
    Senator Inhofe. Well, I'm going to give him a copy of this.
    Senator Chafee. OK.
    Senator Inhofe [continuing]. And please include a 
description of what was agreed to in the consent agreements, 
and which parties were present during the negotiations.
    Maybe you can address a couple of these things in your 
opening remarks, and I will stay here for those opening remarks 
before I have to leave.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe and the 
referenced article from the Washington Times follow:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Thank you Mr. Chairman for calling this hearing today.
    First, I would like to say that I have no problems with either of 
the nominees. I would like to welcome Ms. Udall and congratulate her on 
her renomination, I am sure her father would be proud of the work she 
has accomplished on behalf of the Morris Udall Foundation.
    Mr. Guzy, while I believe you will do a good job as the General 
Counsel of the EPA and I intend to support your nomination, I am 
concerned about how the Agency has handled lawsuits over the last 6 
years, supporting those who sue the EPA.
    Just last week in the Washington Times, a columnist wrote a very 
disturbing article on the EPA's wasteful grants. In fact, I would like 
to enter the article into the record. The article details how the 
Agency provides millions in grants to organizations who turn around and 
immediately sue and lobby the Agency. The appearance is that the 
Federal taxpayers are subsidizing these lobbying efforts and lawsuits.
    In addition, I am also concerned how the Agency enters into these 
so-called ``consent agreements'' where the EPA determines Agency policy 
in backdoor negotiations.
    The appearance is that this Administration funds lawsuits by 
environmental organizations who sue the Agency with taxpayers funds. 
Then the EPA turns around and enters into backdoor negotiations with 
these groups, producing consent agreements that bind the Agency outside 
the normal notice and comment process.
    Because of these concerns, and your role as the General Counsel for 
the EPA, I am requesting that you provide the Committee the following 
information, and I will withhold my support for moving your nomination 
forward until we have received the information.
    1. I would like a list, covering the last 6 years, of all grants to 
individuals or organizations that have also sued the Agency. Please 
include the amount and purpose of the grant, and the relevant dates for 
the grants and lawsuits.
    2. I would like a list of all parties to any ``consent agreements'' 
that the EPA entered into over the last 6 years. Please include a 
description of what was agreed to in the consent agreements, and which 
parties were present during the negotiations.
    I want to thank you in advance for cooperating with this request 
and I look forward to supporting your nomination once we have received 
the information.
                                 ______
                                 

       [From the Washington Times, Wednesday, February 24, 1999]

                         EPA's Wasteful Grants

                           [by Deroy Murdock]

    The EPA gets by with a lot of help from its friends.
    Since President Nixon gave birth to the Environmental Protection 
Agency, its budget has skyrocketed from $384 million in fiscal 1970 to 
$7.3 billion in fiscal 1998, outpacing inflation by 456 percent.
    One secret behind EPA's ballistic budget trajectory is its support 
of non-profit organizations. Citizens Against Government Waste (CAGW) 
recently released a report titled ``Phony Philanthropy'' by David E. 
Williams and Elizabeth L. Wright. They explore more than $236 million 
in EPA grants given to 839 non-profit groups in 1995 and 1996. Like a 
squad of taxpayer-funded cheerleaders, many of these outfits waved 
their pom-poms and lobbied Congress for higher EPA spending.
    EPA grants also squandered tax money on corporate welfare, silly 
ethnic diversity schemes and projects best reserved to states and 
localities. These highly politicized boondoggles clean up little 
pollution and beg to be excised with a budgetary ax.
    The EPA, for instance, gave $166,888 to the American Lung 
Association. The ALA lobbied Congress for increased EPA funding, 
including new money for lung research. Who would you guess that might 
benefit?
    The Consumer Federation of America received $380,275 from the EPA 
to promote ``indoor air quality awareness.'' The CFA then asked 
Congress to maintain funding of the EPA's indoor air quality 
activities.
    The National Rural Water Association received a healthy $14,436,634 
from the EPA. It returned the favor by charging its lobbying expenses 
to the EPA and the US. Department of Agriculture. It organized lobbying 
by state associations and even incorporated a full-time, taxpayer-
funded EPA employee in its legislative efforts through the 
Intergovernmental Personnel Act, a sort of borrow-a-bureaucrat program.
    The National Senior Citizens Education and Resource Center may be 
the EPA's most notorious grantee. This offshoot of the National Council 
of Senior Citizens received a shocking 99.7 percent of its budget from 
Federal grants in 1995-1996, including $6,074,800 from the EPA. From 
1992-1996, it gave $460,043 in campaign contributions--all to 
Democrats. The Federal Election Commission fined the group $12,000 for 
campaign violations in 1996. Wearing T-shirts that read, ``SHAME,'' 
about 20 NCSC members were removed by the Capitol Police after they 
disrupted a Sept. 23, 1995, House Ways & Means Committee hearing on 
Medicare.
    When the EPA isn't spending your money to ask Congress for more 
money, it showers your money on industries with lots of money. It gave 
$432,840 to the International Association of Lighting Management to 
``test, validate and, if necessary, revise the decades old data 
underlying Luminaire Dirt Depreciation (LDD) curves used in current 
lighting system design.'' As anyone who has cleaned up for house guests 
knows, dusty lampshades are a domestic nightmare. But couldn't General 
Electric or the folks who sell Mr. Clean perform this vital research?
    And the EPA's $1,397,718 grant to the Geothermal Heat Pump 
Consortium to underwrite a ``National Earth Comfort Program'' sounds 
lovely, but why not leave that to the home heating industry?
    Sometimes it seems the EPA's left hand doesn't know what its far-
left hand is doing. What else could explain an $81,391 grant to the 
Lawyer's Committee for Civil Rights? It is assisting two 
``environmental justice'' lawsuits against the EPA. In short, the EPA 
is using your money to help lawyers sue the EPA. The circle of life is 
complete!
    As if there were no 10th Amendment, the EPA occasionally resembles 
a giant city hall. The San Francisco League of Urban Gardeners, aka 
SLUG, received $35,515 from the EPA for ``urban greening, neighborhood 
beautification and local food production.'' Next time SLUG members need 
money, they should call San Francisco Mayor Willie Brown at 415-554-
4000.
    Perhaps most troubling is the EPA's support for non-profits with 
race-tinged agendas. It gave $11,000 to Boston's Environmental 
Diversity Forum, for example. EDF's mission is to ``protect the 
environment by advocating racial, cultural and economic diversity at 
all organizational levels and in all policies and programs of the 
environmental movement.'' One hundred thousand dollars in EPA funds 
went to the Korean Youth and Community Center in Los Angeles for 
``linguistically and culturally appropriate community education, 
technical and small business assistance to find healthy alternatives to 
perchloroethylene, a dry cleaning agent.'' The EPA should focus on 
pollution and leave multiculturalism to the Rev. Jesse Jackson and its 
other champions.
    The GOP Congress should hold oversight hearings on these and scores 
of other fishy EPA grants that CAGW has exposed. Then, with this 
nonsense clearly on the record, it can begin to slash EPA's budget 
accordingly.

    Senator Chafee. OK, fine.
    Now, if you would like to introduce Mr. Guzy, Senator 
Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    I am pleased to welcome Gary Guzy here because in Gary, we 
have an example of those who are committed to government 
service, where extensive opportunity on the outside would be 
easily available. He is a talented fellow and as noted, Mr. 
Chairman, the President sent his name up to be General Counsel 
of the Environmental Protection Agency, and we are pleased and 
lucky to have him. He is from New Jersey, as you might guess, 
and he was New Jersey-born, as was his mother, in my home town 
where I was born, in Paterson, NJ.
    Gary had honors when he was in high school, which was an 
indication of what was yet to come. But then he left our State 
and attended college and law school in a beautiful part of New 
York State--it doesn't compare to New Jersey--but he went to 
Cornell, and he returned to a profession highly regarded in the 
State of New Jersey, and that is environmental protection.
    Gary Guzy clerked for an Appeals Court judge, worked in 
private practice, and then came to Government with a position 
in Department of Justice's Environment and Natural Resources 
Division. At the Department of Justice, he specialized in 
wetlands, water quality, federalism, regulatory takings, and 
hazardous waste issues, and from there he came to the 
Environmental Protection Agency as Deputy General Counsel, 
where he helped manage the Agency's legal staff.
    I must say that it is my view that they have done a 
terrific job over there. We have gotten rid of a lot of the 
litigious environmental suits, proceeded to negotiated 
settlements, and that's why we now have in Superfund almost 
some 600 sites that are cleaned up, with approximately 100 yet 
to go. Progress has been notably improved there.
    From 1995 to 1998 he served as Counselor to EPA 
Administrator Carol Browner, where he worked on children's 
environmental health and the restoration of the Everglades, 
among other issues.
    I hope, Mr. Chairman, that you and Senator Inhofe, who has 
legitimate questions to ask, will take a few minutes to visit 
with Mr. Guzy. He is an impressive fellow and I know that he is 
going to do an excellent job as EPA's General Counsel, and I 
recommend him to the committee with a full heart and head, 
knowing that he is going to do a very good job there, and I'm 
sure he'll be able to respond appropriately to Senator Inhofe's 
inquiries.
    I just hope that we will be able to move along with 
dispatch.
    Also if I might, Mr. Chairman, I would like to take one 
moment to welcome Anne Udall, because she represents such a 
distinguished family. What an appropriate place this is, this 
hearing room, for Udall family members to gather, because your 
father was so much an environmentalist and his reputation for 
honesty and integrity is second to none. We are pleased to have 
you with us today.
    Thanks very much, Mr. Chairman.
    Senator Chafee. Thank you.
    Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    First of all, I am sure all of you have welcomed the 
family?
    Senator Chafee. We have, yes.
    Senator Baucus. Good.
    Mr. Guzy, I really do wish you the very best in this job. 
It is not easy, but as you know, public service sometimes has 
its rewards. Usually it has its rewards, but sometimes its 
frustrations, and I just want you to know that I am very 
impressed with how much the EPA has progressed over the years 
on a practical and pragmatic basis in just trying to solve 
problems. I know you will follow the same tradition, and I very 
much urge you to do so.
    I think Carol Browner has done a terrific job in leading 
the Agency, and I just hope, again, that you can just help her 
to keep her feet on the ground, and your head screwed on 
straight, just keep your focus on what we're all supposed to be 
doing here, listening to people so that we can do a good job in 
serving them.
    Again, there is no reason why I should think you would not 
do that, and I wish you the very best.
    Senator Chafee. Thank you.
    Now I see that Representative Udall is here. You 
undoubtedly have a busy schedule; if you would like to come up 
and say a few words on behalf of your sister--and we hope they 
are favorable words----
    [Laughter.]
    Senator Chafee. You go to it.

  STATEMENT OF HON. MARK UDALL, U.S. REPRESENTATIVE FROM THE 
                       STATE OF COLORADO

    Mr. Udall. Thank you, Mr. Chairman, members of the 
committee. It is a privilege to be here today with you. It is 
even more of a privilege to introduce my sister, Anne Udall, to 
you.
    I have known her since an early age----
    [Laughter.]
    Mr. Udall [continuing]. And I am still here to commend her 
to you.
    I am sure that Anne is also concerned, on the other hand, 
that my appearance might torpedo her nomination----
    [Laughter.]
    Mr. Udall [continuing]. So I hope, whether I hurt or help 
her, that you will take a look at her record, and I think that 
record speaks for itself.
    We are very proud of the Udall Foundation and what it has 
accomplished and what it can accomplish in the future. Anne, in 
bringing her background as an educator to the Foundation, 
certainly has been a real asset. As you know, the Foundation 
has as one of its missions to help educate Native Americans in 
environmental policy and health policy, and she certainly has 
been able to bring some important understandings to that part 
of the mission.
    I think you also know that the Foundation has really been 
more aggressive in its mission, including the environmental 
mediation piece that has just been added, and I would thank the 
Senate for its support of that undertaking as well.
    So it gives me great pleasure to introduce my sister to 
you, Anne Jeannette Udall, and commend her to you.
    Thanks for letting me appear today. Thank you.
    Senator Chafee. Fine.
    Does anybody have any questions?
    [No response.]
    Senator Chafee. All right, fine. We know you have a busy 
schedule, so if you want to go along, that would be fine.
    Mr. Udall. I'm going to sit here for a few minutes, Mr. 
Chairman, if that's all right.
    Senator Chafee. All right, fine.
    Now, Mr. Guzy, we welcome you again. One of the things that 
impressed me tremendously is the number of lawyers that you 
supervise in total. Is it 300? How many is it?
    Mr. Guzy. It's around 250 lawyers, about 350 positions all 
together, including our support staff.
    Senator Chafee. All right. Why don't you go ahead with your 
statement?

   STATEMENT OF GARY GUZY, NOMINATED BY THE PRESIDENT TO BE 
        GENERAL COUNSEL, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Guzy. Thank you and good morning, Mr. Chairman, Senator 
Baucus, Members of the committee. It is a great honor to be 
here today, to have been nominated by the President and asked 
by Administrator Browner to serve as General Counsel of the 
Environmental Protection Agency.
    I am also deeply grateful to Senator Lautenberg for his 
very generous words, for the leadership that he has provided on 
environmental issues, as well as for the service that he has 
provided to the citizens of my home State.
    I am delighted to be joined by my wife and children, by 
EPA's Acting Principal Deputy General Counsel, Lisa Freidman, 
who has been an employee of the Office of General Counsel of 
EPA for 22 years, and by Bob Dreher, our Deputy General 
Counsel.
    I believe that now is an opportune time to be taking on the 
challenges of serving as EPA's General Counsel. First, EPA 
today is a fundamentally different organization. It is one that 
is reconnected to communities, to the American people, and it 
is helping to make a difference in the issues that people face 
in their everyday lives. Whether it be a child who suffers from 
asthma, or a family who lives near a river too polluted for 
fishing or swimming, our Nation still has much to do to protect 
the health of its citizens and its environment. When I think 
back to my own early childhood, living in Newark, NJ, with a 
mother--a single parent, a dedicated public school teacher--
from that I recognize that a government that is caring, that is 
honest, that is open, can make a difference in the lives of 
ordinary citizens. I look to my own two small children and 
recognize the importance of the work we are embarked on 
together to assure them a healthy future and the continued 
enjoyment of our Nation's legendary natural bounty that has 
been so important in my own life.
    Second, I am very hopeful that we are again entering a 
period of basic agreement on the tasks to be done to advance 
public health and environmental protection. I know you've heard 
the phrase about the pendulum swinging back and forth, and it 
has been doing that for several years, but I really sense a 
much more fundamental agreement today on the important work 
that we all have to do together to continue the bipartisan 
accomplishments of public health and environmental protection 
of the last 30 years.
    As our statutes in this area have matured, we have the 
challenge of keeping their overall goals and framework in mind 
as we apply them to new situations and in fresh ways, and these 
developments will challenge us. This will demand balance, will 
demand common sense, and will demand judgment. If confirmed, I 
look forward to working in a close cooperative relationship 
with this committee and its staff in meeting these challenges.
    I have been privileged over the last several years to have 
worked with Administrator Browner who, with her senior 
leadership team, has demonstrated a commitment to the 
protection of public health and the environment that is 
accomplished through creative means that provide unprecedented 
flexibility to communities and to industry. This approach has 
continued to demonstrate that our economy and our environment 
are inextricably linked, and that a strong economy and a 
healthy environment are twin, compatible goals that must drive 
all of our actions.
    In the course of this work I have had the opportunity to 
work with many members of this committee and their staffs on 
many issues of shared interest. These include working to 
protect children from the threat of environmental tobacco 
smoke, to helping to ensure the future of the Everglades, and 
these efforts have required careful, respectful coordination of 
activities among the legislative, executive, and judicial 
branches of our Government.
    When I think of some of the major issues EPA will face over 
the next several years, I am struck by how central ``sound 
lawyering'' will continue to be to the success of these 
efforts. Whether it be new efforts to apply more broadly the 
lessons learned from reinvention, or our implementation of the 
protections for children under the new Food Quality Protection 
Act, whether it be meeting the challenge of the responsible 
collection, use, and dissemination of information, or EPA's 
work under the Clean Water Action Plan to address nonpoint 
source pollution--all of these challenges will demand the best 
from our Nation's premier environmental law firm.
    I am delighted to be rejoining a group that is as talented, 
creative, dedicated, and hard-working as the career staff at 
EPA's Office of General Counsel. They have an expertise in 
environmental law that is unmatched. I recognize that EPA's 
currency with the Congress, with the courts, and with the 
public is its credibility, and that much of this rests with the 
objectivity, with the integrity of the work of the Agency's 
Office of General Counsel.
    I look forward, if confirmed, to continuing the great 
traditions of that office and to the opportunity for continued 
public service.
    I also know from my career in the private practice of 
environmental law, representing private industry and States, 
and then from my work at the Department of Justice and at EPA 
representing the Federal Government, that keeping an open mind, 
being attentive to absolute fairness of process for all 
affected parties, is also essential to the ultimate success of 
our work.
    When I clerked for Judge Elbert Tuttle, who had by then 
served as a Federal Circuit Court judge for 30 years following 
his already long and distinguished career in private practice 
and the military, it so impressed me that he was absolutely, 
vitally interested in my then-relatively uninformed views. And 
this openness of thinking, this reaching out to hear everyone's 
perspective, no matter how hard we've been at an issue, no 
matter how long we've worked at it, how much we've been 
immersed in it--that kind of reaching out is critical to 
improving the quality of EPA's analysis and the quality of 
EPA's decisions.
    It is also critical that we maintain the highest of ethical 
standards in our work. These are values that, if confirmed, I 
will strive to take to my job every day and continue to build 
in our staff.
    I also recognize that the EPA's General Counsel has the 
rare luxury of a vantage point that cuts across all of the 
Agency's work, providing an important check-and-balance and a 
means for integrating disparate agency activities.
    That check-and-balance--if I may address some of the 
concerns that Senator Inhofe raised--oftentimes, the Office of 
General Counsel reviews and provides counsel to the activities 
around the Agency, and I think one of the areas in which I am 
proudest of the accomplishments over the last 6 years has been 
the improvements in the management integrity that have occurred 
at the Agency. There have been vast improvements in that area, 
and the concerns that you have asked about--whether grant funds 
are being improperly used to litigate against the Federal 
Government, whether consent decrees are being used in a way 
that is inappropriate--are all absolutely fair concerns that we 
should work together to ensure that you are satisfied on them. 
I know that we have, in fact, addressed a number of these 
issues in the past. We have worked hard to ensure that grant 
funds that the Agency provides are not used in any way, that 
Federal taxpayer dollars are not used in any way, to support 
litigation against the Federal Government. That would be 
inappropriate, and we have a number of management checks built 
into our system, designed to ensure that that is not, in fact, 
done.
    I believe we have provided that list of grants to 
individuals on the House side, and we would obviously be happy 
to provide it to you, as well.
    The questions that you raise about the use of consent 
decrees are also very important. They pose a number of very 
difficult and challenging issues for the Agency. As one 
example, under the Clean Water Act, we now face litigation, 
brought primarily by environmental groups, in approximately 35 
States around the country for the failure of those States and 
the failure of EPA to carry out its obligations to perform, to 
carry out total maximum daily load calculations. That provides 
an enormous management challenge, and it is absolutely true 
that negotiations through consent decrees, the avoidance of 
litigation, provides an important management tool in order to 
help prioritize the Agency's responsibilities and carry those 
out.
    In addition, it is very important that the public comment 
provisions when we do have negotiations and enter into a 
consent decree are absolutely abided by, that there be a fair 
and full and open opportunity for public comment about the 
obligations that the Agency does determine to take on. 
Generally it is our preference to work through settlement 
agreements rather than court-bound consent decrees, but there 
are times when that becomes necessary as well, and we would be 
pleased to work with you to gain a better understanding of your 
concerns in that area.
    I wish you could have joined me several weeks ago when I 
went door to door at EPA's offices to meet the staff of our 
Office of General Counsel. The excitement of our lawyers at 
working for the public on the issues that EPA confronts every 
day is palpable, it's invigorating, and it's a joy to see. But 
it also creates a very deep responsibility to lead this group 
wisely, as does the responsibility of ensuring that our 
Nation's environmental laws are faithfully carried out. These 
are public trusts that, if confirmed, I look forward to working 
closely with you to ensure.
    I would be very pleased to answer any questions that the 
committee may have.
    Senator Chafee. Thank you, Mr. Guzy.
    Are you willing to appear at the request of any duly 
constituted committee of the Congress as a witness?
    Mr. Guzy. Yes, I am.
    Senator Chafee. And do you know of any matters which you 
may or may not have thus far disclosed which might place you in 
any conflict of interest if you are confirmed in this position?
    Mr. Guzy. No, I do not.
    Senator Chafee. I think the questions that Senator Inhofe 
asked were very valid questions, and I will be curious as to 
the answer, likewise. If you can get those up as quickly as 
possible, it will help us, because we do want to move along 
with your confirmation and that of Ms. Udall.
    Mr. Guzy. I appreciate that, Mr. Chairman. I would be 
pleased to provide those to you, as well.
    Senator Chafee. This is a very impressive job which you 
have, as we pointed out earlier. Not only do you have lawyers 
here, but you have lawyers scattered around the country.
    Suppose EPA wants to pursue a clean water permit violator--
I'm giving you a hypothetical here. Now, there would be 
lawyers, presumably, from the Office of Water at EPA's Office 
of Enforcement, is that correct?
    Mr. Guzy. Lawyers from both of those offices, that is 
correct.
    Senator Chafee. And your office, the Office of General 
Counsel?
    Mr. Guzy. That's correct.
    Senator Chafee. How about from the Department of Justice? 
Would there be lawyers there, too, from them?
    Mr. Guzy. Oftentimes that is the case as well.
    Senator Chafee. Now, how do you divide up the labor when 
you get so many cooks in the broth, here?
    Mr. Guzy. It is more an art than a science.
    Senator Chafee. I'll bet.
    Mr. Guzy. Our office often serves the function of trying to 
mediate and work through the internal differences of opinion 
that may exist. It's not surprising that oftentimes there are 
different views. We bear primary responsibility at the Agency 
for understanding and interpreting the statutes that Congress 
has created.
    Senator Chafee. Something that you can be helpful to us on 
is how we might fine-tune some of these statutes that we have. 
Now, sometimes it is not possible to do that in the Clean Water 
Act, the Clean Air Act, or whatever it is. By getting into the 
act, we open the door, and we may open the door to a lot of 
trouble. However, it is nice to know what the people out on the 
front lines would like.
    So in the course of your work--this committee is here to 
help you, not to be an obstacle--in the course of your work, if 
you find that there should be fine-tuning in some respect of 
these laws, of these environmental laws, come up and let us 
know and we'll do what we can to fix them up. It may not be 
possible, but at least we would know from our experience in 
talking with you.
    Now, let me ask you this, what are your top three 
priorities? Give us your priorities.
    Mr. Guzy. First and foremost, Mr. Chairman, is to act as a 
careful steward of the environmental statutes that Congress has 
created. My primary responsibility will be to ensure that the 
Agency's actions are fully lawful, that they are true to both 
the letter and the spirit of the environmental statutes, and 
that they create sustainable constructs under those statutes as 
we move into new areas that may not have been fully anticipated 
when they were passed. In many instances, these laws have been 
around for 25 or 30 years, and they have been enormously 
successful laws. There are a new set of challenges that really 
need to be addressed under those laws.
    Second, I would like to be able to foster new thinking on 
the Agency's behalf among the staff of the Office of General 
Counsel on alternative, nonregulatory methods for achieving our 
goals. Oftentimes we proceed down a course that almost seems 
pre-programmed to meet the responsibilities of the statutes. 
Things like enhanced partnerships with industry, communities, 
our fellow regulators, use of additional tools such as the 
appropriate use of information--I think that they often provide 
enormous opportunities for achieving the goals of the 
environmental and public health statutes and are ones that 
really merit very, very careful exploration.
    And then last, I would very much like to employ the skills 
that I see that I have as a problem-solver and as a finder of 
common ground, to continue to develop agreed-upon areas of 
environmental and public health protection. It strikes me that 
nearly 30 years ago Congress created a very long-lasting 
structure for the future of environmental and public health 
protection, and some continuation of the discussion of what 
should be the framework for the next 30 years, in a nonpartisan 
and constructive manner, would be an enormously valuable 
contribution.
    Senator Chafee. Well, thank you very much.
    I just want to say, before calling on Senator Baucus, that 
there tends to be a sense of gloom sometimes about the 
environment. We see cases have been lost or activities taken, 
but if you just pick up today's New York Times, on the West 
Coast and the East Coast, you see two very, very exciting 
articles. The first one deals with the saving of that redwood 
forest on the West Coast, an incredible achievement for which 
we give credit to Secretary Babbitt and all who worked on it, 
and the State of California.
    On the East Coast, in Maine, you might have seen that they 
have thousands of acres--I mean, hundreds of thousands of 
acres--that have been put into what you might call a 
conservation easement.
    So good things are happening, and it is important for all 
of us to realize that and not just concentrate on the setbacks 
that we receive.
    Senator Baucus.
    Senator Baucus. Thank you very much, Mr. Chairman.
    Mr. Guzy, I compliment you on your goals, and the last one 
particularly. I hope you have the time; I suspect that in the 
daily rush it is going to be difficult to accomplish all that, 
but I very much hope that you can.
    I would like you, if you could, to just tell us your 
thoughts about cost-benefit analysis. It's kind of a buzz word 
around here, and well intended; people want to balance the 
costs against the benefits and determine what the proper 
results should be.
    Yesterday we had an oversight hearing on the Safe Drinking 
Water Act and, as you know, there is a cost-benefit analysis 
provision there, but that's with respect to cancer only and not 
other health consequences that might occur, non-carcinogenic 
health consequences that might occur.
    Senator Voinovich from Ohio suggested at an earlier hearing 
this year that perhaps cost-benefit should be applied to the 
ambient air standards and to other statutes.
    What are your thoughts on what works and what doesn't work? 
You don't have to be too conclusionary about it, but what are 
some of the benefits and what are some of the problems that you 
run into? For example, how do you monetize certain benefits? 
Just any guidance you might have.
    Mr. Guzy. Sure. Cost-benefit analysis, Senator, can be a 
very important analytical tool, cost-effectiveness 
considerations, for helping to understand and helping the 
public to understand the nature of the decisions we face in the 
environment and public health area, and to help improve the 
quality of those decisions.
    Nonetheless, it carries with it a number of very 
significant pitfalls. You've mentioned the Safe Drinking Water 
Act, and I think it is an interesting model because it 
represents a very carefully balanced approach to the use of 
cost-benefit analysis. While it requires that analysis, on the 
other hand it doesn't mandate the use of its results as a 
decisional tool, and that's absolutely critical.
    Second, there was an important recognition that this 
committee had in adopting that provision, that judicial review 
of the cost-benefit analysis should not be allowed to overwhelm 
the decisions that are made, should not become a barrier to 
carrying out the responsibilities of that statute.
    Statutes and the challenges they pose may differ, so the 
kind of balance that is struck under the Safe Drinking Water 
Act may or may not be appropriate in different areas. You have 
mentioned the fact that the end points under the Safe Drinking 
Water Act primarily are cancer; the roots of ingestion are a 
glass of water, primarily, whereas something like the Clean Air 
Act--widely dispersed pollutants, a wide variety of end points, 
and the challenges then become much, much more difficult. There 
are very tough questions posed by cost-benefit analysis. How do 
you monetize those benefits? How do you truly understand the 
values that should be assigned to those things? How much do you 
value a lost IQ point in a child? How much can you value a 
decision that a child has to stay indoors, that they can't go 
outside and play soccer, that they miss a day of school? How do 
you value human life?
    Oftentimes the results in cost-benefit analysis are so 
driven by the assumptions that are put into the equation that 
cost-benefit analysis really is a fairly crude tool that, in my 
opinion, cannot be used to drive, in and of itself, decisions 
about what the appropriate outcome should be.
    Let me mention one other thing. There is a very wise 
recognition in the Clean Air Act that science and analysis will 
change over time, that it will improve, and that's why, for 
example, in setting public health ambient air quality 
standards, Congress recognized that that should be done 
periodically; that you stop, you do the best job you can every 
5 years, and continue to refine and improve.
    If Congress were to set up a test that requires that every 
question have a full answer in every single way, and that that 
then can be subject to judicial review in every single fashion, 
I believe that would be a recipe for not getting the job done 
and for ignoring the fact that science, our understanding, 
continues to progress.
    Across-the-board statutes may be helpful in advancing more 
informed analysis, but if there is a cross-cutting statute, my 
belief is that it should not require that cost-benefit-based 
decisions be employed as a decisional tool across the board, 
and it should not allow judicial review of those analyses to 
supplant continued progress.
    Senator Baucus. That's a very good response.
    Another buzz word, ``sound science.'' What does sound 
science mean to you?
    Mr. Guzy. Sound science means that we employ the best, most 
reasoned basis for agency decisions; that we use the tools that 
are available for doing that, such as appropriate peer review 
to ensure the integrity of scientific decisions; and also that 
we deploy our resources based upon some understanding of what 
the relative risks are, based upon use of that science.
    It oftentimes, I think unfortunately, is used as a codeword 
to challenge agency decisions and the integrity of those agency 
decisions based upon an assertion that we may or may not have 
taken appropriate steps without really looking carefully at 
those steps. One example is the use of appropriate scientific 
assumptions. It would be impossible to do our work without 
using some scientifically valid assumptions, and not having an 
absolutely complete data set in hand.
    Senator Baucus. But is it true that in the final analysis 
it's a matter of judgment, that science can't make the 
judgment, that a regulator or a public policy person must 
eventually then make it?
    Mr. Guzy. I would agree with you, Senator, that science is 
another tool that informs the kind of public policy decisions 
that are required under the environmental and public health 
statutes, that it oftentimes cannot provide complete yes-or-no 
answers, much as we would like it to be able to.
    Senator Baucus. Thank you very much. You're going to do a 
good job.
    Mr. Guzy. Thank you.
    Senator Chafee. Senator Lautenberg.
    Senator Lautenberg. Very briefly. Since I come from a 
business background, I am interested in process. I note that 
sometimes between various regional offices, that you will get 
different responses to things, and I am sure that's true in the 
Office of General Counsel as well.
    Have you taken a look at that to see how headquarters 
functions with the regionals and see whether or not everybody 
has a common view, or what the approach to the problems ought 
to be?
    Mr. Guzy. I have, and I have found the same thing that 
confirms your impressions. At the beginning of last week I met 
with all of our regional counsels from all 10 of the EPA 
regions, and we had a very productive discussion about ways 
that we could improve that situation.
    In May, for the first time ever, we are hosting in 
Washington a national law office counseling conference, to 
provide uniform training to counseling attorneys across the 
country. In addition, we will be working to create a National 
Legal Council, consisting of our regional counsels, our Deputy 
General Counsels who are here today, and our Associate General 
Counsels who head our very small offices, in order to ensure 
that for difficult problems we can work them through together, 
and also that we can wisely deploy our resources so that we are 
not duplicating expertise in various areas around the country 
and reinventing the wheel.
    Senator Lautenberg. OK. You did what I wanted to do, which 
was to indicate that you are aware of the problem and that 
you're going to do something to solve it. It would make for 
easier and more efficient functioning, I think, if we could get 
that done.
    Mr. Guzy. Yes, sir.
    Senator Lautenberg. You did respond in part on this to 
Senator Chafee. In the enforcement of environmental law there 
is sometimes a question or a doubt about whether it's the 
Department of Justice's or EPA's attorneys. Is it possible to 
have concurrent jurisdiction on these with the two agencies?
    Mr. Guzy. I have actually had, as you know from my 
background, the benefit of working in both places. I believe 
that there is a very productive and strong relationship between 
EPA and the Department of Justice on environmental matters. 
They provide a variety of skills that the Agency does not 
currently have, and they provide an enormously valuable 
perspective as well, based upon their litigating strength.
    Nonetheless, I would be happy to work with you to examine 
ways in which it may be appropriate to explore additional 
litigating authority for the Agency.
    Senator Lautenberg. OK. I am on the subcommittee that has 
jurisdiction over Justice appropriations, and I am interested 
in seeing how we can improve the function.
    I thank you very much, and I agree with the comments made 
by others that you are going to do very well, that you are 
going to represent EPA and the Government very well, and you 
also bring some distinction to our precious little State of New 
Jersey. Thank you very much.
    Mr. Guzy. Thank you, Senator.
    Senator Chafee. OK, Mr. Guzy, if you can get those answers 
to Senator Inhofe quickly, and send us a copy, if you would, to 
the committee here.
    Thank you very much.
    Mr. Guzy. Thank you, Mr. Chairman.
    Senator Chafee. All right. Now, Ms. Udall, why don't you go 
ahead with your statement?

   STATEMENT OF ANNE UDALL, NOMINATED BY THE PRESIDENT TO BE 
REAPPOINTED AS A MEMBER OF THE BOARD OF TRUSTEES OF THE MORRIS 
 K. UDALL SCHOLARSHIP AND EXCELLENCE IN NATIONAL ENVIRONMENTAL 
                       POLICY FOUNDATION

    Ms. Udall. All right. I asked Mark to stay so that I could 
really tell you the truth about him.
    [Laughter.]
    Ms. Udall. We are all really excited about his new job. We 
think it's funny that he has to wear a coat and tie every day, 
so we give him a hard time, but we're very proud of Mark.
    Mr. Chairman and members of the committee, I am pleased and 
honored to be nominated for another term on the Board of 
Trustees of the Morris K. Udall Foundation. Since the 
Foundation's beginning 4 years ago, I have had the privilege of 
serving on the Foundation as the vice chair. In the past 4 
years we have proudly carried on the vision of a man who has 
been a great public servant.
    As Senator Chafee mentioned, today is particularly poignant 
for me as his colleagues and my family will honor Dad at a 
memorial service this afternoon in a place that he loved, the 
U.S. Congress.
    There has been much said about Dad over the years, but when 
Mark and I and four of my other brothers and sisters were at 
the White House on behalf of Dad, and President Clinton awarded 
Dad the Medal of Freedom, the President said about Dad,

    His landmark achievements, such as reforming campaign 
finance, preserving our forests, safeguarding the Alaskan 
wilderness, and defending the rights of Native Americans were 
important indeed. But he distinguished himself above all as a 
man to whom other leaders would turn for judgment, skill, and 
wisdom. Mo Udall is truly a man for all seasons and a role 
model for what is best in American democracy.

    Senators will recall that the Udall Foundation is both 
similar to, and different from, its predecessors in the Federal 
family, the Truman, Madison, and Goldwater Foundations. We are 
similar in that we are educational entities that award college 
scholarships, fellowships, and internships to further public 
goals. The Udall Foundation's focuses are the environment and 
Native American affairs.
    We differ in that our Foundation was given a broader 
mandate than the others. Congress also told us to do policy 
work in the areas of Native American health care and 
environmental conflict resolution; to hold annual conferences 
on important national issues; and to work with the Udall Center 
at the University of Arizona to generate new research in our 
fields.
    The Foundation, in carrying on Dad's legacy, is dedicated 
to civility, integrity, and consensus. Since our establishment 
we have accomplished the following.
    The Foundation has awarded 220 scholarships to college 
juniors and seniors who are planning careers in the environment 
or Native American health care. Interest in the Udall 
scholarships has grown rapidly and today, more than 1,200 
colleges and universities participate.
    Senator Chafee. I didn't quite understand that. What does 
it mean, ``participate''?
    Ms. Udall. One of the ways that you succeed in awarding 
scholarships is that you make sure that each campus has a 
scholarship representative. Actually, campuses can turn you 
down. So a scholarship program can come to a campus and say, 
``We'd like you to publicize this,'' and they can say no. So 
it's really quite an accomplishment when you have 1,200 
campuses that actually have representatives who say, ``I will 
shepherd this through; I will make sure students hear about 
it.''
    Senator Chafee. Does Brown University participate, for 
example? Do you know?
    Ms. Udall. Yes.
    Senator Chafee. The University of Rhode Island, perchance? 
Do you know? I mean, it seems to me that they ought to.
    Ms. Udall. If they don't, we'll make sure they do.
    [Laughter.]
    Senator Chafee. Well, if you could draw it to their 
attention, I would appreciate it.
    Ms. Udall. Definitely.
    Senator Chafee. It seems to me that it makes a scholarship 
available for the young people who are there.
    Ms. Udall. Right.
    Senator Chafee. Thank you. Go ahead.
    Ms. Udall. The demand is such that the Board would like to 
raise the annual number of awards from 75 to 100, and the 
stipend from $5,000 to $7,500.
    We have initiated the first Native American congressional 
Internship Program, with which I know you are familiar. This 
year we graduated and sent back to their tribes the third class 
of Udall interns with an enriched knowledge of Congress and the 
executive branch. Congressional interns, all of whom are 
college graduates, are split evenly between Republican and 
Democratic offices. Three slots have been available at the 
White House. Interns are lodged at The George Washington 
University and are provided a per diem and, upon successful 
completion of the program, a stipend of $1,200.
    The program also provides regular counseling, travel to 
historic sites, and special meetings with national leaders. The 
evidence thus far suggests that our graduates are having a 
dramatic impact on their tribes.
    The Foundation has begun a program to support top doctoral 
candidates in their dissertation years. Last year we began by 
authorizing the gift of $24,000 each to two of the Nation's 
leading graduate students after a national competition. The 
first year was judged a success, yielding two potentially 
publishable theses covering new ground in environmental 
research. The Board has decided to continue the program this 
year and expand it over time as our financial resources grow.
    We have sponsored two widely reported national conferences 
on environmental issues, and a third conference last October on 
Native American health care.
    The Foundation has conducted extensive preliminary planning 
for a program that will begin this year, which is called Parks 
In Focus. In cooperation with the Boys and Girls Club, the 
National Park Service, and two private concerns, Cannon and 
Kodak, we will take inner city into our National Parks for long 
weekends. They will be given cameras and will engage in 
photography contests. Their photos then will be displayed in 
their schools. This effort with grade school children will 
supplement our educational programs which focus primarily on 
college and graduate students.
    Finally, again, an effort with which the committee is very 
familiar, we have undertaken a searching analysis of the 
methods of environmental conflict resolution and its possible 
use by Federal agencies. The Foundation's efforts include 
convening a large national conference on this subject and 
conducting simulations to test negotiating methods.
    This research led to a request by Senator John McCain, that 
the Foundation undertake a formal role as the Federal mediator 
in environmental disputes. In consultation with the White 
House, Senator McCain introduced S. 399, which was subsequently 
approved by the final Senate and House and signed by President 
Clinton in January of last year. The law creates within the 
Udall Foundation a new Federal entity known as the United 
States Institute for Environmental Conflict Resolution. This 
Institute will be located with the Foundation in Tucson, 
providing a neutral site within the Federal establishment but 
outside the Beltway where public and private interests can seek 
common ground and settle environmental disputes.
    The Institute is intended to give yet another boost to the 
growing environmental conflict resolution movement, to move 
away from a period of confrontation and litigation to a new 
area where we follow Mo Udall's lead and strive for consensus.
    I am hopeful that the committee can see the great work that 
the Foundation has undertaken and is continuing to pursue. For 
me personally, as Mo's daughter and as an American who is 
committed to public service in my own life, serving on the 
Board of Trustees has been a very special honor for me. Over 
the past several years, as Dad struggled daily with the trials 
of Parkinson's disease, I had a great deal of pride and 
satisfaction knowing that in some small way I was able to carry 
on his great work. I would very much appreciate the opportunity 
to continue to serve on the Board of Trustees of the Morris K. 
Udall Foundation.
    Thank you.
    Senator Chafee. Well, thank you very much, Dr. Udall.
    Are you willing to appear at the request of any duly 
constituted committee of the Congress as a witness?
    Ms. Udall. Yes.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed?
    Ms. Udall. No.
    Senator Chafee. I take it that your organization is 
headquartered in Tucson?
    Ms. Udall. That is correct.
    Senator Chafee. What other sources of revenue, outside of--
I'm not even sure of what your sources of revenue are. Start 
with the Federal Government.
    Ms. Udall. The Federal Government in the initial 
legislation gave $20 million to the Foundation as their corpus, 
and the Foundation has very strict laws that regulate how the 
money can be spent. We spend the interest off the corpus. The 
Congress just approved another $4.25 million.
    The legislation also gives us the opportunity to raise 
private funds if we wish, which we have not pursued as a 
Foundation, but I think at one point we will look at that as a 
possibility.
    Senator Chafee. I would encourage you to do that, because I 
think that there is going to be a feeling that if there is no 
private support for one of these undertakings--and we have 
several of them, as you have mentioned here; indeed, I thought 
there would have been more than you listed. You mentioned the 
Truman, Madison, and Goldwater Foundations. I would have 
thought there would be more than that. I thought we did one for 
Sam Nunn.
    But in any event, I think that the attitude is going to be 
that ``it's time each tub stood on its own bottom'' to the 
greatest extent possible, and if there is no public support for 
such an Institute or Foundation, then why should the Federal 
Government continue doing it solely?
    Ms. Udall. The Board is very, very aware of the issue that 
you have raised. I think in our first couple of years we felt a 
very strong commitment to make an impact and to do some good 
things with the money. I also agree with you that we will be 
looking at and pursuing other sources of support.
    Senator Chafee. Good.
    You know, it's amazing; there's a lot of money out there. 
There is. There is money rolling around in this country that 
astonishes you. Some humble-seeming person that you never 
suspected will walk in and plunk down a million dollars. Now, 
I'm not saying that these things are lying around and all you 
have to do is bend over and pick them up, but it is 
astonishing, the money that can be raised.
    Senator Baucus.
    Senator Baucus. Thanks, Mr. Chairman.
    I might say, you might try to grab it now before the stock 
market takes a dip.
    [Laughter.]
    Senator Baucus. I am particularly interested in conflict 
resolution. Could you tell us what you are doing and what 
lessons you have learned that could be applied elsewhere in 
environmental disputes?
    Ms. Udall. Right now, Senator Baucus, the Conflict 
Resolution Center has really been in the process of defining 
its role and really looking at how it is going to be a broker 
for other Federal agencies.
    I think one of the things that we're learning is that once 
you get people to the table, you can often find common ground, 
and it's about really encouraging people that there is a 
benefit to talking about something before you look at 
litigation.
    Senator Baucus. Now, do you make yourselves available for 
various disputes?
    Ms. Udall. Yes. The law states that Federal agencies must 
use us before they move to litigation, and then we will also 
make ourselves available to other people as a broker for 
services. We will engage in some mediation, but our primary 
responsibility is to help agencies and other groups that are in 
disagreement to find people who can help them mediate.
    Senator Baucus. Can you give us an example of where you've 
jumped in and helped?
    Ms. Udall. Yes. Right now we're looking for perhaps a 
national case or two to take on, but one that we did get 
involved in was actually in Arizona. We helped mediate some 
work over the placement of a building and how it would impact 
on the owl population. There were a number of agencies in the 
Arizona area that were particularly deadlocked, so the 
Institute helped pull together some folks to talk about it and 
to really see if we could resolve that.
    Senator Baucus. Do you get at all involved in undertakings 
to start even earlier, sort of work with groups to prevent 
conflicts from arising in the first place?
    Ms. Udall. One of the big pieces--and the Board right now 
is really sort of fleshing out how we want to make an impact, 
because it is such a growing area and there is such great 
need--but one of the areas that we are putting a lot of 
attention on is the actual training of folks in conflict 
mediation who are involved, so that before it even gets to the 
point of litigation, people realize that there are tools 
available to them and how they might reach consensus.
    Senator Baucus. Again, can you give an example?
    Ms. Udall. I don't have any examples of the training we 
have provided, although I do know that that will be a major 
focus for us over the next 2 years.
    Senator Baucus. Now, is your charter for conflict 
resolution broad? Is it narrow?
    What I'm getting at is this. We have a highway problem in 
Montana----
    [Laughter.]
    Ms. Udall. Bring it on, right?
    Senator Baucus. Right. It is Highway 93, and it is very 
heavily traveled. It is a very scenic part of Montana. It goes 
through a Salish-Kootenai Reservation, a Flathead Reservation, 
and the Federal Government, the Federal Highway Administration, 
the State, and the tribe are trying to figure out what to do 
with this highway. We all know there's going to be a highway, 
we just don't know what the design is going to be.
    So I will give them your name.
    [Laughter.]
    Ms. Udall. We are ready.
    As an outsider to all of this, when this issue was first 
raised and we pulled together a lot of people, I was astounded 
at the sort of ``family conflicts'' that arise just among 
Government agencies. It was astounding to me.
    So it is very much part of our vision to work in situations 
like you described.
    Give them Terry's name and Chris' name.
    [Laughter.]
    Senator Baucus. OK. Well, if you get a phone call, you will 
know where it came from.
    Ms. Udall. That's great.
    Senator Baucus. OK, thank you.
    Senator Chafee. I know Senator McCain was very anxious to 
be here to introduce you, Dr. Udall, and regrettably he 
couldn't be here, but I want to officially say that I am sure 
he regrets a great deal that he couldn't be here.
    Ms. Udall. Thank you.
    Senator Chafee. OK, that concludes it. We thank you, and we 
want to move along with this nomination rapidly.
    Ms. Udall. Thank you very much, Senator.
    [Whereupon, at 9:58 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
      Statement of Gary S. Guzy, Nominated to be General Counsel, 
                    Environmental Protection Agency
    Thank you and good morning, Mr. Chairman and Members of the 
Committee. It is a great honor to be here today and to have been 
nominated by the President and asked by Administrator Browner to serve 
as General Counsel of the Environmental Protection Agency.
    I believe that now is an opportune time to be taking on the 
challenges of serving as EPA's General Counsel for several reasons:
    First, EPA today is a fundamentally different organization that is 
reconnected to communities and the American people--helping make a 
difference in the issues people face in their everyday lives. EPA no 
longer is ``the crucible of everyone's discontent'', as it was once 
referred to in the past. It has become the crucible of hope. Whether it 
be the child who suffers from asthma, or the family that lives near a 
river too polluted for fishing or swimming, our Nation still has much 
to do to protect the health of its citizens and its environment. As I 
go about my work, I think back to my early childhood--living in Newark, 
New Jersey, with my mother, a single parent and a dedicated public 
school teacher. From it I recognize that a government that is caring 
and honest and open can make a difference in the lives of ordinary 
citizens. I look to my own two small children and recognize the 
importance of the work we are embarked on together, to assure them a 
healthy future and the continued enjoyment of our Nation's legendary 
natural bounty that has been so important throughout my life.
    Second, I am hopeful we are again entering a time of basic 
agreement on the tasks that are to be done to advance public health and 
environmental protection. The pendulum has done some swinging back and 
forth now for many years, but I now sense a more fundamental agreement 
on the important work that we all have to do together to continue the 
bipartisan accomplishments of the past 30 years. As the public health 
and environmental statutes have matured, we must keep their overall 
goals and framework in mind as we apply the law to new situations in 
fresh ways. These developments will continue to challenge us, and will 
demand balance, common sense, and judgment. If confirmed, I look 
forward to a close cooperative relationship with the Committee and its 
staff in carrying out this work.
    I have been privileged over the last several years to have worked 
with Administrator Browner, who with her senior leadership team, has 
demonstrated an uncompromising commitment to the protection of public 
health and the environment, accomplished through creative means that 
provide unprecedented flexibility to communities and industry. This 
approach has continued to demonstrate that our economy and our 
environment are inextricably linked and that a strong economy and a 
healthy environment are twin and compatible goals that must drive our 
actions.
    In the course of this work, I have had the opportunity to work with 
several members of this committee and their staffs on many issues of 
shared interest. These include working to protect children from the 
threat of environmental tobacco smoke and helping to insure the future 
of the Everglades. These efforts have required the careful and 
respectful coordination of activities in the legislative, executive, 
and judicial branches.
    When I think of some of the major issues EPA will face over the 
next several years, I am struck by how central lawyering will continue 
to be to the success of these efforts. Whether it be new efforts to 
apply more broadly the lessons learned from reinvention, or EPA's 
setting of new tailpipe emissions and sulfur in fuels standards; or our 
implementation of the protections for children of the new Food Quality 
Protection Act, or new chemical testing initiatives being developed 
with industry and the environmental community; whether it be meeting 
the challenge of the responsible collection, use and dissemination of 
information, or EPA's work under the Clean Water Action Plan to address 
non-point source pollution--all of these challenges will demand the 
best from our Nation's premier environmental law firm.
    I am delighted to be rejoining a group that is as talented, 
creative, dedicated, and hardworking as the career staff at EPA's 
Office of General Counsel. They have an expertise in environmental law 
that is unmatched. I recognize that EPA's currency with Congress, the 
courts, and the public is its credibility, and that much of this rests 
with the objectivity and integrity of the work of the Agency's Office 
of General Counsel. I look forward to continuing the great traditions 
of that office and to this opportunity for continued public service.
    I also know--from my career in the private practice of 
environmental law representing private industry and States, and then 
from my work at the Department of Justice and at EPA representing the 
Federal Government--that keeping an open mind and being attentive to 
absolute fairness of process for all affected parties are also 
essential to the ultimate success of our work. When I clerked for Judge 
Elbert Tuttle--who had by then served as a Federal Circuit Court judge 
for 30 years, following his already long and distinguished career in 
private practice and the military--it so impressed me that he was 
vitally interested in my relatively uninformed views. This openness of 
thinking--this reaching out to hear all perspectives, no matter how 
long or hard we have been immersed in an issue--is critical to 
improving the quality of EPA's analysis and of its decisions. Also 
critical is maintaining the highest of ethical standards. These are 
values that, if confirmed, I will strive to take to my job every day, 
and to continue to build in our staff.
    I will also work tirelessly to ensure that we create a seamless web 
of consultation with our agency clients by early work to help identify 
sound legal approaches to carrying out the Agency's mission. I want to 
build on the capacity for innovative, not purely reactive, counseling. 
And I recognize that the EPA's General Counsel has the rare luxury of a 
vantage point that cuts across all of the Agency's work--providing an 
important perspective and means for integrating disparate agency 
activities.
    I wish you could have joined me several weeks ago when I went door-
to-door at EPA's offices to meet the staff of the Office of General 
Counsel. The excitement of our lawyers at working for the public on the 
issues EPA confronts every day is palpable and invigorating. It is a 
joy to see. But it also creates a deep responsibility to lead this 
group wisely, as does the responsibility of ensuring that our Nation's 
environmental laws are faithfully carried out. These are public trusts 
that, if confirmed, I look forward to working closely with you to 
continue to ensure.
    I would be pleased to answer any questions you may have.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
 Office of Congressional and Intergovernmental Relations,  
                           Environmental Protection Agency,
                                 Washington, DC 20460, May 7, 1999.

The Honorable John Chafee, Chairman
United States Senate
Washington, DC 20515

    Dear Mr. Chairman: This letter completes our response to the two 
requests for information that Senator Inhofe made during the March 4, 
1999 hearing on the nomination of Gary Guzy for the position of the 
Environmental Protection Agency (EPA) General Counsel and that you 
clarified in a letter dated March 10, 1999. It supplements the partial 
responses we sent you on March 15.
First Request
    In your first request, you and Senator Inhofe asked for:

        a list, covering the last ten years, of all grants to 
        individuals or organizations (except States and local 
        governments) that have also sued the Agency, including pending 
        litigation. Please include the amount and purpose of the grant, 
        and the relevant dates for the grants and the lawsuits.

    In discussions with Chad Bradley of Senator Inhofe's staff on March 
19, Mr. Bradley clarified that grants to Tribal governments, as well as 
State and local governments, are excluded from this request.'
    In response to your request, we are enclosing a list of non-
governmental individuals and organizations that received grants from 
EPA from January 1, 1989 to March 31, 1999 and that also sued EPA 
during that period. For each grant received by these individuals and 
organizations during the January 1, 1989-March 31, 1999 period, we have 
identified the amount of the grant.
    Although your request does not cover governmental entities, EPA has 
been sued on many occasions by States, local governments, and tribes 
that have received EPA grants.
    the purpose of the grant, the date the grant was awarded, and the 
date of the project. In a separate list, we have identified the filing 
dates of the lawsuits brought by these entities against EPA.
    Our response to this request was prepared by cross-checking a 
Department of Justice computerized list of all the parties in all the 
cases filed against EPA since January 1, 1989 against a computerized 
list of EPA grant recipients from FY 1989 to the present. After we 
identified those grant recipients that were also parties in lawsuits 
against EPA, we cross-checked that list against the computerized case 
list, and came up with a list of cases brought by EPA grantees.
    We encountered a number of challenges trying to ensure accurate 
results. For example, quite a few of the over 3500 names on the case 
list were incomplete, and we had difficulty matching them up with the 
names on our grants list (and vice versa). The case list identified 
lead plaintiffs and lead petitioners, but did not indicate the party 
status of other listed parties. We tried to clarify some of this 
information by checking paper files, but the files were sometimes 
incomplete, particularly for older cases. In short, while we believe 
the enclosed lists are reasonably accurate and complete, it is possible 
that they may contain some errors or omissions.
    We also want to bring one other issue to your attention. In a 
number of situations involving related corporate entities or chapters 
of national non-profit organizations, we had difficulty determining 
whether the entity that sued us was the entity that received a grant. 
For example, EPA has been sued by Texaco Exploration & Production, Inc. 
We do not know whether this company is part of Texaco, Inc., which 
received a grant from us, or is a separate corporate entity. Where we 
were able to sort out these types of relationships, we have done so. 
Where we were unable to do so, we have taken the conservative approach 
of listing all grantees and all litigants. This may overstate, however, 
the number of litigants who received EPA grants.
    You should be aware that every EPA grant agreement is conditioned 
on compliance with OMB Circulars that prohibit the use of grant funds 
for suits against the Government. Specifically, they prohibit ``costs 
of legal, accounting, and consultant services, and related costs, 
incurred in connection with ... the prosecution of claims or appeals 
against the Federal Government'' (OMB Circular No. A-122, Attachment B. 
Section 10.g, which applies to nonprofit organizations; same provision 
in Circular No. A-21, Section J. 1 l.g, which applies to educational 
institutions) and ``legal expenses for prosecution of claims against 
the Federal Government'' (Circular No. A-87, Attachment B. Section 
14.b, which applies to State, local, and tribal governments). In 
addition, EPA's appropriation acts provide that grant funds may not be 
used ``to pay the expenses of, or otherwise compensate, non-Federal 
parties intervening in regulatory or adjudicatory proceedings.''
    In addition, there are numerous administrative checks to assure 
that these requirements are met. EPA carefully reviews all grant 
applications and does not approve applications which indicate that 
grant funds are to be used for litigation. Every grant agreement 
expressly states that the agreement is subject to all applicable legal 
requirements, including statutes and OMB circulars such as the ones 
cited above. At the time a grant is closed out, the grantee must 
certify that grant funds have been spent consistent with the grant 
agreement. If EPA disagrees, it may disallow the expenditures. 
Furthermore, if the grantee knowingly falsifies this certification, it 
is subject to criminal penalties. Finally, improper expenditures may be 
identified either through EPA's oversight of grant agreements or 
through the Inspector General's audit of particular grant agreements.
Second Request
    In his original second request, Senator Inhofeasked for ``a list of 
all parties to any 'consent agreements' that the EPA entered into over 
the last six years.'' He also asked us to provide ``a description of 
what was agreed to in the consent agreements, and which parties were 
present during the negotiations.'' On the afternoons of March 4 and 5, 
Mr. Bradley clarified that this request (1) was limited to non-
governmental parties and does not include states, tribes, and local 
governments, (2) was limited to consent orders in defensive litigation 
and does not cover consent orders in enforcement litigation or 
settlement agreements, and (3) covered a ten-year period.
    On March 15, we sent you and Senator Inhofe and Senator Baucus, a 
table responding to your request as we understood it. After we sent you 
this information, we received your March 10 letter, which further 
clarified the request as follows:
    I would like a list of all parties to any ``consent agreements,'' 
``settlement agreements,'' or related matters that the EPA entered into 
over the last ten years, including pending litigation. Please include a 
description of what was agreed to in the consent agreements, and which 
parties were present during the negotiations.
    In a March 19 discussion, Mr. Bradley clarified that (1) this 
request is limited to consent orders and settlement agreements in 
defensive litigation and does not cover consent orders or settlement 
agreements in enforcement litigation, (2) the reference to pending 
litigation means that the list should include consent agreements and 
settlement agreements in pending (as well as closed) cases, and (3) the 
reference to ``related matters'' means that the list should include any 
court document that has the same effect as a consent order or 
settlement agreement.
    Enclosed are two tables containing the information you requested, 
plus information on the basis for the consent orders and settlement 
agreements. Because some of the EPA attorneys who worked on the older 
consent orders and settlement agreements are no longer employed by the 
Agency and because some of our older litigation files contain limited 
information, we had some difficulty assembling the information you 
requested for some of our older cases2. We believe, however, that the 
enclosed tables are reasonably accurate and complete.
    2 For a few of our older cases, we have been unable to identify a 
case number or other pertinent infonnation about the case.
    Please note that virtually all the orders in the enclosed consent 
order table merely establish court deadlines for EPA actions that are 
required by statute and do not dictate the content of those actions. 
Where they involve a commitment to undertake rulemaking, EPA's actions 
would be subject to the notice-and-comment provisions of the 
Administrative Procedure Act. Like all consent orders, each of these 
orders was reviewed at a high level within the Department of Justice 
and by a court to ensure that it was fair, reasonable, and in the 
public interest. In addition, it is the policy of the Department of 
Justice that the United States not consent to court orders which 
contain provisions for injunctive relief which could not be ordered by 
a court unilaterally. Finally, you should be aware that Section 113(g) 
of the Clean Air Act requires EPA to provide notice of and opportunity 
to comment on defensive consent orders under the Clean Air Act before 
they are final or filed with a court, a practice to which EPA carefully 
adheres.
    The settlement agreements generally fall into three main 
categories: (1) agreements to resolve challenges to Agency rulemaking, 
in which EPA agrees to conduct further rulemaking or studies or to 
issue guidance on or otherwise clarify some aspect of the rule, (2) 
agreements to resolve disputes involving the payment of money (e.g., 
requests for attorneys' fees, takings claims, claims for reimbursement 
of response costs under Superfund), and (3) agreements to resolve 
allegations of Agency inaction, in which EPA agrees to take action by a 
date certain or to take actions which will contribute to the timely 
resolution of a matter. Like consent orders, rulemaking undertaken 
under these agreements would be subject to the notice-and-comment 
provisions of the Administrative Procedure Act, and the agreements 
themselves are reviewed by the Department of Justice and a court.
    We believe this responds fully to the requests you and Senator 
Inhofe made on March 4 and 10. If you need additional information on 
this matter, however, we would be pleased to provide it.
            Sincerely,
                                         Diane E. Thompson,
   Associate Administrator for Congressional and Intergovernmental 
                                                         Relations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Statement by Anne J. Udall, Vice-Chair, Morris K. Udall Foundation
    Mr. Chairman and Members of the Committee: I am pleased and honored 
to be nominated for another term on the Board of Trustees of the Morris 
K. Udall Foundation. Since the Foundation's beginning 4 years ago, I 
have had the privilege of serving on the Foundation as the vice-chair. 
In the past 4 years we have proudly carried on the vision of a man who 
has been a great public servant.
    Today is particularly poignant for me as his colleagues and my 
family will honor Dad at a memorial service he loved, the U.S. 
Congress.
    There has been much that has been said about Dad over the years, 
but President Clinton summed up his contributions to our country when 
awarding Dad the Medal of Freedom:

          His landmark achievements, such as reforming campaign 
        finance, preserving our forests, safeguarding the Alaskan 
        Wilderness and defending the rights of Native Americans, were 
        important indeed. But he distinguished himself above all as a 
        man to whom others--leaders--would turn for judgment, skill and 
        wisdom. Mo Udall is truly a man for all seasons and a role 
        model for what is best in American democracy.

    Senators will recall that the Udall Foundation is both similar to 
and different from its predecessors in the Federal family: the Truman, 
Madison, and Goldwater Foundations. We are similar in that we are 
educational entities that award college scholarships, fellowships and 
internships, to further public goals. The Udall Foundation's focuses 
are the environment and Native American affairs.
    We differ in that our Foundation was given a broader mandate than 
the others. Congress also told us to do policy work in the areas of 
Native American health care and environmental conflict resolution, to 
hold annual conferences on important national issues and to work with 
the Udall Center at the University of Arizona to general new research 
in our fields.
    The Foundation, in carrying on Dad's legacy, is dedicated to 
civility integrity, and consensus. Since our establishment, we have 
accomplished the following:
    <bullet> The Foundation has awarded 220 scholarships to college 
juniors and seniors--planning careers in the environment or Native 
American health care. Interest in Udall scholarships has grown rapidly, 
and today more than 1,430t colleges and universities participate. The 
demand is such that the Board would like to raise the annual number of 
awards from 75 to 100 and the stipend from $5,000 to $7,500.
    <bullet> We have initiated the first Native American Congressional 
internship program. This year we graduated and sent back to their 
tribes the third class of Udall interns with an enriched knowledge of 
Congress and the executive branch. Congressional interns, all of whom 
are college graduates, are split evenly between Republican and 
Democratic offices; three slots have been made available at the White 
House. Interns are lodged at George Washington University and are 
provided a per diem and, upon successful completion of the program, a 
stipend of $1,200. The program also provides regular counseling, travel 
to historical sites, and special meetings with national leaders. The 
evidence, thus far suggests that our graduates are having a dramatic 
impact on their tribes.
    <bullet> The Foundation has begun a program to support top doctoral 
candidates in their dissertation years. Last year, we began authorizing 
the gift of $24,000 each to two of the Nation's leading graduate 
students after a national competition. The first year was judged a 
success, yielding two potentially publishable theses covering new 
ground in environmental research. The Board has decided to continue the 
program this year and expand it over time as our financial resources 
grow.
    <bullet> We have sponsored two widely reported national conferences 
on environmental issues, and a third conference last October on Native 
American health care.
    <bullet> The Foundation has conducted extensive preliminary 
planning for a program that will begin this year called ``Parks in 
Focus.'' The cooperation with the Boys and Girls Clubs, the National 
Park Service and two private concerns, Cannon and Kodak, we will take 
inner-city children into our national parks for long weekends. They 
will be given cameras and will engage in photography contests. Their 
photos then will be displayed in their schools. This effort with grade 
school children will supplement our educational programs which focus on 
college and graduate students.
    <bullet> Finally, we have undertaken a searching analysis of the 
methods of environmental conflict resolution and its possible use by 
Federal agencies. The Foundation's efforts included convening a large 
national conference on the subject and conducting simulations to test 
negotiating methods.
    <bullet> This research led to a request by Senator John McCain that 
the Foundation undertake a formal role as the Federal mediator in 
environmental disputes. In consultation with the White House, Senator 
McCain introduced S. 399, which was subsequently approved by the final 
Senate and House and signed by President Clinton in January of this 
year. The law creates within the Udall Foundation a new Federal entity 
known as the U.S. Institute for Environmental Conflict Resolution.
    <bullet> The institute will be located with the Foundation in 
Tucson, providing a neutral site within the Federal establishment but 
outside the ``Beltway'' where public and private interests can seek 
common ground and settle environmental disputes. The Institute is 
intended to give yet another boost to the growing environmental 
conflict resolution movement to move away from a period of 
confrontation and litigation to a new area where we follow Mo Udall's 
lead and strive for consensus.
    I am hopeful that the Committee can see the great work the 
Foundation has undertaken and is continuing to pursue. For me 
personally, as Mo's daughter and as an American who is committed to 
public service in my own life, serving on the Board of Trustees has 
been a very special honor for me. Over the past several years, as Dad 
struggled daily with the trials of Parkinson's disease, I have had a 
great deal of pride and satisfaction knowing that in some small way I 
was able to carry on his great work I would very much appreciate the 
opportunity to continue to serve on the Board of Trustees of the Morris 
K. Udall Foundation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                          Office of Hon. Jim Kolbe,
                             U.S. House of Representatives,
                                     Washington, DC, March 1, 1999.
Hon. John Chafee, Chairman,
Committee on Environment and Public Works,
Washington, DC.
    Dear Mr. Chairman: It gives me great pleasure to relay my support 
for the re-nomination of Anne Udall as Vice Chairwoman of the Morris K. 
Udall Foundation Board of Trustees.
    I have known Anne for years, and she has done a remarkable job as a 
trustee for the Foundation. She is a sincere, dedicated and committed 
member of this organization. The struggle to resolve environmental 
issues seems to be a never-ending task Nevertheless, people like Anne 
Udall have taken it upon themselves to solve these problems by bringing 
all parties together to communicate their needs and values so that, in 
the end, everyone walks away a winner.
    I appreciate your committee's work in this area. Under your 
guidance, the Senate Environment and Public Works Committee has shown 
the fairness and thoughtfulness, which we all strive to achieve.
            Sincerely,
                                                 Jim Kolbe,
                                                Member of Congress.


                                <greek-d>

</pre></body></html>
